No. ______
In the

Supreme Court of the United States
__________________

STATE OF NEVADA, et al.,
Petitioners,
v.
DONALD WALDEN, JR., et al.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
AARON D. FORD
Attorney General of Nevada
HEIDI PARRY STERN*
Solicitor General
JEFFREY M. CONNER
Deputy Solicitor General
STEVE SHEVORSKI
Chief Litigation Counsel
100 North Carson Street
Carson City, NV 89701
(775) 684-1100
HStern@ag.nv.gov
* Counsel of Record
Counsel for Petitioners
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
Whether a state remains immune from suit after
voluntarily removing a federal claim to federal court
when the state is immune from such claims in its own
courts.

ii
PARTIES TO THE PROCEEDING
Petitioners in this proceeding are the State of
Nevada and its Department of Corrections.
Respondents Donald Walden, Jr., Nathan Echeverria,
Aaron Dicus, Brent Everist, Travis Zufelt, Timothy
Ridenour, and Daniel Tracy are class representatives
of similarly situated correctional officers employed by
the Nevada Department of Corrections.
RELATED PROCEEDINGS
Donald Walden, Jr., et al., v. State of Nevada, et al.,
No. 14-OC-00089-1B
First Judicial District Court of the State Of
Nevada in and for Carson City – case removed to
United States District Court for the District of
Nevada – June 17, 2014
Donald Walden, Jr., et al., v. State of Nevada, et al.,
No. 3:14-cv-00320-LRH-WGC
United States District Court, District of Nevada
– Order Granting in Part and Denying in Part
Defendant’s Motion to Dismiss – March 26, 2018
Donald Walden, Jr., et al., v. State of Nevada, et al.,
No. 18-15691
United Sates Court of Appeals for the Ninth
Circuit – Order and Amended Opinion Affirming
Denial of Defendant’s Motion to Dismiss –
December 23, 2019

iii
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . ii
RELATED PROCEEDINGS . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . v
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 4
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
CONSTITUTIONAL PROVISIONS . . . . . . . . . . . . . 4
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 5
REASONS FOR GRANTING THE PETITION . . . . 6
I.

A pervasive split of authority exists on
resolution of the question this Court left open
in Lapides . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

II.

The Ninth Circuit’s decision deepens the
disagreement on the question left open in
Lapides and creates tension with this Court’s
precedents recognizing the importance of
state sovereign immunity . . . . . . . . . . . . . . . . 9

III.

This case is a good vehicle for resolving a
long-standing split of authority on a
recurring question of constitutional
magnitude . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

iv
APPENDIX
Appendix A Order and Amended Opinion in the
United States Court of Appeals for the
Ninth Circuit
(December 23, 2019) . . . . . . . . . . . App. 1
Appendix B Opinion in the United States Court of
Appeals for the Ninth Circuit
(October 16, 2019) . . . . . . . . . . . . App. 17
Appendix C Order in the United States District
Court, District of Nevada
(March 26, 2018) . . . . . . . . . . . . . App. 32

v
TABLE OF AUTHORITIES
CASES
Alden v. Maine,
527 U.S. 706 (1999). . . . . . . . . . . . . . . . . . . . . . . . 1
Allen v. Cooper,
140 S. Ct. 994 (2020). . . . . . . . . . . . . . . . . . . . . . . 1
Beaulieu v. Vermont,
807 F.3d 478 (2d Cir. 2015) . . . . . . . . . . . . . . . 2, 8
Bergmann v. Rhode Islnd Dep’t of
Environmental Mgmt.,
665 F.3d 336 (1st Cir. 2011) . . . . . . . . . . . . . . . 8, 9
Embury v. King,
361 F.3d 562 (9th Cir. 2004). . . . . . . . . . . . . . . . . 5
Estes v. Wyoming,
302 F.3d 1200 (10th Cir. 2002). . . . . . . . . . . . . 8, 9
Franchise Tax Board of Cal. v. Hyatt,
139 S. Ct. 1485 (2019). . . . . . . . . . . . . . . . . . . . . . 1
Hester v. Indiana State Dept. of Health,
726 F.3d 942 (7th Cir. 2013). . . . . . . . . . . . . . . . . 2
Lapides v. Board of Regents,
535 U.S. 613 (2002). . . . . . . . . . . . . . . . . . . passim
Lombardo v. Pennsylvania Dep’t of Public Welfare,
540 F.3d 190 (3d Cir. 2008) . . . . . . . . . . . . 8, 9, 12
Meyers ex rel. Benzing v. Texas,
410 F.3d 236 (5th Cir. 2005). . . . . . . . . . . . 8, 9, 12

vi
Passaro v. Virginia,
935 F.3d 243 (4th Cir. 2019). . . . . . . . . . . . . . . . 11
Puerto Rico Aqueduct & Sewer Authority v.
Metcalf & Eddy, Inc.,
506 U.S. 139 (1993). . . . . . . . . . . . . . . 4, 11, 12, 13
Stewart v. North Carolina,
393 F.3d 484 (4th Cir. 2005). . . . . . . . . . . . . . 8, 12
Stroud v. McIntosh,
722 F.3d 1294 (11th Cir. 2013). . . . . . . . 2, 8, 9, 12
Taylor v. County of Pima,
913 F.3d 930 (9th Cir. 2019). . . . . . . . . . . . . . . . 13
Trant v. Oklahoma,
754 F.3d 1158 (10th Cir. 2014). . . . . . . . . . . . . . 12
Watters v. Washington Metro Area Transit Auth.,
295 F.3d 36 (D.C. Cir. 2002). . . . . . . . . . . . . . . . . 8
CONSTITUTION AND STATUTE
U.S. Const. amend. XI . . . . . . . . . . . . . . . . . . 3, 4, 6, 7
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 4

1
PETITION FOR WRIT OF CERTIORARI
Immunity from private suit is “‘[a]n integral
component’ of the States’ sovereignty,” and a concept
fundamental to, and implicitly embedded in, the
constitutional design of our republic. Franchise Tax
Board of Cal. v. Hyatt, 139 S. Ct. 1485, 1493 (2019); see
also Alden v. Maine, 527 U.S. 706 (1999). While this
Court continues to emphasize that the States did not
completely forfeit their immunity from suit by ratifying
the Constitution, see Allen v. Cooper, 140 S. Ct. 994,
1000 (2020), in this case, the Ninth Circuit eschewed
principles of state sovereignty in favor of its preference
for establishing an “easy-to-administer,” and
admittedly unfair, rule.
In the process, the Ninth Circuit deepened a split of
authority on a question this court left open nearly two
decades ago: whether a state waives immunity from
suit by voluntarily removing a federal claim to federal
court when the state would remain immune from suit
for the same claim in its own courts. Lapides v. Board
of Regents, 535 U.S. 613, 617-18 (2002). And the Ninth
Circuit’s failure to pay due regard to principles of state
sovereign immunity demonstrates the need for this
Court to intervene and resolve this long-standing split
of authority.
In Lapides, this Court granted review to address the
question “whether the State’s act of removing a lawsuit
from state court to federal court waives” the state’s
immunity from suit. 535 U.S. at 616. Recognizing that
the case before it only presented the need to answer the
question of waiver in a very narrow context, this Court
held that a state’s removal to federal court results in a

2
waiver of immunity from suit only with respect to
state-law claims for which the state had already
waived its immunity from suit in its own courts.
Lapides, 535 U.S. at 617-18, 624. However, this Court
expressly left open the question presented here:
whether voluntary removal will result in a waiver of
immunity from suit for a federal claim if the state
would remain immune from suit on the federal claim in
its own courts. Id. at 617-18.
In the eighteen years that have passed since
Lapides, the Circuits have split on whether removal
waives immunity from suit on federal claims if the
state would enjoy such immunity from those claims in
its own court. In this case, the Ninth Circuit joined the
Third, Fifth, Tenth, and Eleventh circuits in holding
that removal waives immunity from suit in all cases,
while the First, Second, Fourth, and D.C. circuits have
held that removal does not result in a waiver of
immunity from suit where a state has not waived
immunity from suit in its own courts. See, App. 8-16;
Stroud v. McIntosh, 722 F.3d 1294, 1300-02 (11th Cir.
2013) (discussing split)1; Beaulieu v. Vermont, 807 F.3d
478, 485-90 (2d Cir. 2015) (same).
This case provides an opportunity for this Court to
draw a clear line on the issue of waiver by removal as
it relates to the important constitutional principle of
1

Although the Eleventh Circuit identified the Seventh Circuit as
falling on the side of the split that would find a waiver of immunity
from suit in all cases, the Seventh Circuit has more recently
explained that the question remains unanswered in that circuit.
Compare Stroud, 722 F.3d at 1300, with Hester v. Indiana State
Dept. of Health, 726 F.3d 942, 949-51 (7th Cir. 2013).

3
state sovereign immunity. The Ninth Circuit based its
holding on the “rationale of Lapides” and the desire to
implement an “easy-to-administer rule….” App. 14-15.
But the Ninth Circuit’s reliance on Lapides makes little
sense here, leaving only the Ninth Circuit’s desire for
an easy-to-apply rule as the justification for its
categorical rule on waiver.
In Lapides, this Court acknowledged a state should
not be able to use the immunity recognized by the
Eleventh Amendment as a sword to defeat claims the
state has waived its immunity to in its own courts. But
the potential for unfairness that this Court intended to
curtail in Lapides does not exist when a state removes
a case from one forum to another where the state is
immune from suit in both forums. And judicial
expedience, unlike this Court’s desire to avoid
“selective use of ‘immunity’ to achieve litigation
advantages” in Lapides, 535 U.S. at 620, does not
outweigh a foundational principle like state sovereign
immunity.
This case squarely presents an important question
of federal constitutional law that this Court identified
and left unresolved in Lapides. After nearly two
decades of percolation in the lower courts, the time has
come for this Court to address that question. This
Court should grant the petition.

4
OPINIONS BELOW
The original opinion in this matter, which has since
been withdrawn, was reported at Walden v. Nevada,
941 F.3d 350 (9th Cir. 2019). See also App. 17-31. The
order denying rehearing and the amended opinion are
reported at Walden v. Nevada, 945 F.3d 1088 (9th Cir).
See also App. 1-16. The district court’s order is
unreported. See App. 32-56.
JURISDICTION
The Ninth Circuit entered judgment on October 16,
2019, and entered an order denying rehearing with an
amended opinion on December 23, 2019. Petitioner
invoked the appellate jurisdiction of the Ninth Circuit
by challenging the district court’s denial of immunity
from suit under the collateral order doctrine. Puerto
Rico Aqueduct & Sewer Authority v. Metcalf & Eddy,
Inc., 506 U.S. 139, 146 (1993). This Petition is timely
filed under Supreme Court Rule 13 and this Court’s
order dated March 19, 2020, which extended the
deadline for filing any petition for writ of certiorari due
after the date of the order. This Court has jurisdiction
under 28 U.S.C. § 1254(1).
CONSTITUTIONAL PROVISIONS
The Eleventh Amendment of the United States
Constitution states:
The Judicial power of the United States shall
not be construed to extend to any suit in law or
equity, commenced or prosecuted against one of
the United States by Citizens of another State,
or by Citizens or Subjects of any Foreign State.

5
STATEMENT OF THE CASE
Plaintiffs, correctional officers employed by the
Nevada Department of Corrections (NDOC), filed suit
in Nevada’s state courts, alleging violations of the Fair
Labor Standards Act (FLSA) along with other claims
made under state law. App. 4-5. NDOC removed the
case to federal court. App. 4-5.
After reviewing dispositive motions on Plaintiffs’
first-amended complaint, the district court sua sponte
requested briefing on whether it lacked subject matter
jurisdiction to proceed on Plaintiffs’ FLSA private
causes of action. App. 5-6. Based on the parties’ briefs,
the court determined that NDOC waived sovereign
immunity under Lapides, without distinguishing
between immunity from suit and immunity from
liability. App 6.
NDOC appealed and the Ninth Circuit affirmed.
App. 31. The Ninth Circuit summarized the limited
holding of Lapides and its own decision in Embury v.
King, 361 F.3d 562 (9th Cir. 2004), where it “built on
Lapides” by holding that removal waives immunity
from suit with respect to federal claims. App. 23-26.
But the court recognized this case involved a question
of first impression in the Ninth Circuit because (1) a
footnote in Embury acknowledged the court was not
deciding whether removal would result in a waiver of
immunity from suit for claims where Congress had not
validly abrogated sovereign immunity, and
(2) Congress did not validly abrogate sovereign
immunity when adopting the FLSA. App. 26-28.

6
The Ninth Circuit went on to establish a categorical
rule that removal waives immunity from suit in all
cases. To support this conclusion, the Ninth Circuit
offered two justifications for its rule. First, the court
reasoned that allowing Nevada to assert immunity
from suit as a defense would be unfair because the
state “only points to one place in the first four years of
active litigation where it arguable raised the issue of
sovereign immunity….” App. 29-30. Second, although
the court acknowledged that its categorical rule might
be unfair to states in some cases, it concluded that its
desire for clear, “easy-to-administer” jurisdictional
rules overrides any potential for unfairness to the
States. App. 30. Finally, the Court issued an amended
opinion that followed NDOC’s petition for rehearing,
which included a new footnote clarifying that the
decision only addresses immunity from suit and leaves
open whether a state may still assert immunity from
liability after removing to federal court. App. 7 n.1.
REASONS FOR GRANTING THE PETITION
In Lapides, this Court issued a narrow holding,
deciding that voluntary removal results in the state
waiving immunity from suit for state law claims if the
state has already waived immunity from such claims in
its own courts. 535 U.S. at 617-18, 624. This Court
reached this sensible conclusion by invoking the
general rule that voluntary invocation of federal
jurisdiction demonstrates an intent to waive immunity.
In particular, this Court recognized the unfairness that
would result from permitting a state to use the
immunity recognized by the Eleventh Amendment as
a sword to defeat the state’s waiver of immunity from

7
claims raised under its own laws in its own courts. Id.
at 621-23 (noting that interpreting the Eleventh
Amendment to imply waiver “rests upon the
Amendment’s presumed recognition of the judicial need
to avoid inconsistency, anomaly, and unfairness,” and
that adopting the state’s position allows a state “to
achieve unfair tactical advantages, if not in this case,
in others”).
However, this Court expressly left open the question
whether the same result should occur where a state
removes an action involving claims for which the state
has not waived immunity in its own courts. Id. at 618.
The Circuits have split on how to resolve that question,
and this case squarely presents the issue.
Plaintiffs brought the claims that are the subject of
this appeal under the FLSA. App. 6. The Ninth Circuit
acknowledged that Congress’s adoption of the FLSA
does not result in a valid abrogation of state sovereign
immunity. App. 12. The court nevertheless held that
Nevada is not entitled to immunity from suit because
it voluntarily removed this case to federal court. App.
13-16.
With eighteen years having passed since Lapides,
the time is right for this Court to resolve the question
it left open in that case.
I.

A pervasive split of authority exists on
resolution of the question this Court left
open in Lapides.

Eighteen years ago, this Court left the lower courts
to address the question whether removal to federal
court results in a waiver of immunity from suit for

8
federal claims from which the state would remain
immune in its own courts. Since then, the circuits have
split on how to answer that question.
Now, including the Ninth Circuit, App. 16, five
circuit courts have held that removal waives immunity
from suit to all claims, even where the state would
retain its immunity from suit for such claims in its own
courts. Lombardo v. Pennsylvania Dep’t of Public
Welfare, 540 F.3d 190, 198 (3d Cir. 2008); Meyers ex rel.
Benzing v. Texas, 410 F.3d 236, 254-55 (5th Cir. 2005);
Estes v. Wyoming, 302 F.3d 1200, 1206 (10th Cir. 2002);
Stroud, 722 F.3d 1294, 1302 (11th Cir. 2013). The
common thread amongst these cases is
straightforward: they have held that the state waives
immunity from suit in the federal forum by voluntarily
invoking federal jurisdiction. Id.
In contrast, the First, Second, Fourth, and D.C.
circuits have reached the conclusion that a state’s
removal to federal court only results in waiver of
immunity from suit if the state has already waived its
immunity in state court. Bergmann v. Rhode Islnd
Dep’t of Environmental Mgmt., 665 F.3d 336, 342 (1st
Cir. 2011); Beaulieu, 807 F.3d at 486; Stewart v. North
Carolina, 393 F.3d 484, 490 (4th Cir. 2005); Watters v.
Washington Metro Area Transit Auth., 295 F.3d 36, 42
n.13 (D.C. Cir. 2002). As the First Circuit explained in
Bergmann, the “desire to avoid unfairness” links this
Court’s decision in Lapides and other cases where this
Court has determined that a voluntary invocation of
federal jurisdiction waives immunity from suit. 665
F.3d at 341. But that rationale does not support the
need to force a waiver of immunity on the state when

9
the state would remain immune from a federal claim in
its own courts. Id. at 342 (“In the case at hand, Rhode
Island’s sovereign immunity defense is equally as
robust in both the state and federal court.
Consequently, there is nothing unfair about allowing
the state to raise its immunity defense in federal court
after having removed the action. Simply put, removal
did not change the level of the playing field.”). The
concern for unfairness that drove this Court’s decision
in Lapides is nonexistent if the state removes a federal
claim when the defense of sovereign immunity is also
available in state court. But a categorical rule for
waiver is unfair to the States because it forces them to
choose between their immunity and their right to have
a federal court decide the issue of immunity. Id.
II.

The Ninth Circuit’s decision deepens the
disagreement on the question left open in
Lapides and creates tension with this
Court’s precedents recognizing the
importance of state sovereign immunity.

In settling on the conclusion that a state waives
immunity from suit by removing a case to federal court,
the Third, Fifth, Tenth, and Eleventh circuits all
focused on this Court’s reliance on the general principle
that voluntary invocation of federal jurisdiction waives
immunity from suit in Lapides. Lombardo, 540 F.3d at
198; Meyers, 410 F.3d at 254-55; Estes, 302 F.3d at
1206; Stroud, 722 F.3d 1302. The Ninth Circuit’s
opinion joining those circuits in applying a categorical
rule for waiver of immunity from suit misreads Lapides
and creates tension with this Court’s long-standing

10
recognition of the important principle of state sovereign
immunity.
The Ninth Circuit recognized, as this Court did in
Lapides, that the voluntary invocation of federal
jurisdiction does not result in a categorical waiver of
immunity from suit. App 8 (citing Lapides, 535 U.S at
618-21).
Thus, the Ninth Circuit offered two
justifications for its decision to establish a categorical
rule for waiver by removal.
First, the Court considered the possibility of
unfairness, but the court did not focus on whether
removal creates unfairness. App. 14-15. Instead, the
court concerned itself with when Nevada raised the
issue of immunity from suit. App. 14. Such a casespecific consideration is no justification for the
categorical rule established here, especially when the
court simultaneously agreed with the First Circuit’s
view that such a rule will result in unfairness to the
States in some cases. App. 14-15.
Second, the court suggested that Lapides indicated
a preference for clear jurisdictional rules. App. at 1415. However, that aspect of Lapides is a response to
Georgia’s suggestion that it did not have a nefarious
motive for removing the case where this court returned
to the foundation for its decision: avoiding the creation
of a rule that “would permit States to achieve unfair
tactical advantages.” Lapides, 535 U.S. at 621. No
such tactical advantages are gained by removal when
the defense of immunity from suit is also available to
the state in its own courts, leaving the Ninth Circuit’s
desire for an “easy-to-administer rule” as the only
justification for its categorical rule on waiver. Judicial

11
expedience alone is an inadequate justification for
overriding a foundational principle like state sovereign
immunity. Cf. Metcalf & Eddy, Inc., 506 U.S. at 146
(recognizing the “dignitary interests” protected by the
doctrine of state sovereign immunity).
The Ninth Circuit’s decision in this case, and the
rationale offered by the Third, Fifth, Tenth, and
Eleventh circuits, concluding that removal always
results in waiver of immunity from suit is not
supported by Lapides, which was focused on the
potential for a state’s conduct to give the State an
unfair advantage. And the Ninth Circuit’s desire for
straightforward, easy-to-apply rules cannot be a basis
to override an issue so fundamental to our
constitutional design as state sovereign immunity.
Rules that are easy to apply may be desirable, but a
court’s preference for judicial expedience alone does not
justify displacement of the “dignitary interests” that
the States retain under the Constitution in the form of
immunity from suit. Metcalf & Eddy, Inc., 506 U.S. at
146.
III.

This case is a good vehicle for resolving a
long-standing split of authority on a
recurring question of constitutional
magnitude.

This case presents a fundamental question of
constitutional law upon which there is an intractable
split of authority. There is no sign of the circuits
coming to a consensus on how to resolve the question
presented. Compare App. 8-16, with Passaro v.
Virginia, 935 F.3d 243, 247 (4th Cir. 2019) (“Nothing in
these out-of-circuit cases makes us inclined to revisit

12
Stewart; in any event, we are powerless to overturn
Stewart.”). With the passage of eighteen years since
this Court left the issue open for resolution, the time
has come for this Court to put the issue to rest.
And this case provides a clean vehicle for this Court
to resolve the issue. There is no debate that the FLSA
does not abrogate state sovereign immunity. App. 12.
The Ninth Circuit’s amended opinion expressly
acknowledges that it resolved the singular issue
presented in this petition: whether Nevada’s voluntary
removal waives immunity from suit for a federal claim
that Nevada would remain immune to in its own
courts. App. 7 n.1.
Finally, although the Ninth Circuit’s amended
opinion leaves the question of immunity from liability
unaddressed, App 7 n.1, the other circuits that side
with the Ninth Circuit on waiver of immunity from suit
have concluded that the state may still assert
immunity from liability. Lombardo, 540 F.3d at 200;
Meyers, 410 F.3d at 254-55; Stroud, 722 F.3d 1302;
Trant v. Oklahoma, 754 F.3d 1158, 1173 (10th Cir.
2014). Thus, all the circuits that have addressed the
issue recognize that removal does not forfeit immunity
altogether, they only disagree on what form that
immunity should take. But the distinction between the
two forms of immunity is critical for a state in Nevada’s
position. As this Court recognized in Metcalf & Eddy,
the issue of immunity from suit falls within the scope
of the collateral order doctrine to ensure that States
are not “unduly burdened by litigation” and “that the
State’s dignitary interests can be fully vindicated.” 506
U.S. at 146. The issue of immunity from liability,

13
however, is redressable by ordinary appeal, requiring
a state to wait for a final appealable order to appeal the
denial of a defense based on immunity from liability.
Taylor v. County of Pima, 913 F.3d 930, 934 (9th Cir.
2019). States should not have to wait for a final
appealable order to vindicate the sovereignty they
retain under the Constitution. Metcalf & Eddy, 506
U.S. at 146.
* * *
Eighteen years is time enough for this Court to let
the lower courts attempt to reach a consensus on the
question that this Court left unaddressed in Lapides.
They have been unable to do so, and only this Court
can resolve the dispute.

14
CONCLUSION
This Court should grant the petition.
Respectfully submitted,
AARON D. FORD
Attorney General of Nevada
HEIDI PARRY STERN*
Solicitor General
JEFFREY M. CONNER
Deputy Solicitor General
STEVE SHEVORSKI
Chief Litigation Counsel
100 North Carson Street
Carson City, NV 89701
(775) 684-1100
HStern@ag.nv.gov
* Counsel of Record
Counsel for Petitioners
May 2020

